           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 ANNUAL EARNINGS TEST UNDERPAYMENTS
      PAYABLE TO BENEFICIARIES

       April 2012   A-09-11-11128




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      April 6, 2012                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Annual Earnings Test Underpayments Payable to Beneficiaries (A-09-11-11128)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           correctly paid beneficiaries whose annual report data on the Master Beneficiary Record
           (MBR) exceeded their earnings on the Master Earnings File (MEF).

           BACKGROUND
           Social Security benefits are intended to replace, in part, earnings an individual or family
           loses because of retirement, disability, or death. However, in some cases, retired
           beneficiaries may continue working while receiving Social Security benefits. In those
           instances, Title II of the Social Security Act (Act) requires that SSA use an Annual
           Earnings Test (AET) to measure the extent of beneficiaries' retirement and determine
           the amount, if any, to be deducted from their monthly benefits. The Act provides for a
           two-tiered earnings test: one for beneficiaries under full retirement age and another for
           beneficiaries in the year they attain full retirement age. 1

           Beneficiaries whose total annual earnings are equal to or less than the annual exempt
           amount will receive full benefits for the year. Beneficiaries who are younger than full
           retirement age and earn an amount in wages, self-employment income, or both over the
           annual exempt amount receive reduced benefits. 2 In 2008, the annual exempt amount
           for beneficiaries under full retirement age was $13,560. 3 Generally, for every
           $2 beneficiaries earn over the annual exempt amount, SSA is required to deduct $1 in



           1
               Social Security Act §§ 203(b), 203(f), and 203(h), 42 U.S.C. §§ 403(b), 403(f), and 403(h).
           2
               SSA, POMS, RS 02501.021 B.1 (June 9, 2009).
           3
               SSA, POMS, RS 02501.025 D (January 19, 2011).
Page 2 - The Commissioner

benefits. 4 Each month in which SSA imposes an AET deduction will result in an
increase in a beneficiary’s monthly benefit amount at full retirement age. 5

The Act 6 requires that beneficiaries provide an annual report of earnings for a taxable
year when they (1) are entitled to benefits for 1 or more months during the year, (2) earn
over the annual exempt amount, and (3) are under full retirement age in at least
1 month. However, beginning in 1997, SSA amended its regulations to use the MEF to
be the annual report required by the Act.

To ensure compliance with the AET provisions, SSA compares annual report data
recorded on the MBR 7 with earnings data recorded on the MEF. 8 This process, called
the Earnings Enforcement Operation (EEO), detects improper payments that may have
been made during the year. SSA’s Automated Job Stream (AJS-3) processes any
beneficiary records identified by the EEO. The AJS-3 makes necessary changes to the
beneficiary records, including establishing over- or underpayments. In addition, AJS-3
sends notices to the beneficiaries to inform them of the actions taken.

In a 2007 audit, 9 we found that the EEO did not select beneficiaries who had annual
report data on the MBR that was higher than the amount on the MEF. Our 2007 report
included a recommendation that SSA determine whether it should revise the EEO to
select these beneficiaries for review. In response to our 2007 audit, SSA stated it
agreed with the intent of our recommendation and would study whether a policy change
should be made. Based on a review of 2008 records that met these criteria, SSA
determined it would not be productive to revise the EEO to select these cases.

For our current review, we identified 22,647 records of beneficiaries whose annual
report data on the MBR was greater than their earnings on the MEF for
Calendar Years (CY) 2005 through 2008 (see Appendix C).




4
    SSA, POMS, RS 02501.025 D (January 19, 2011) and RS 02501.080 A.1 (April 27, 2011).
5
    SSA, POMS, RS 00615.480 (September 16, 2002) and RS 00615.482 (December 20, 2010).
6
    Social Security Act, § 203 (h), SSA, POMS, RS 02510.001 (May 23, 2007).
7
  The MBR contains identifying information for each beneficiary, including entitlement data, benefit
payment history, and earnings reported by the beneficiary.
8
  The MEF contains earnings for all workers. SSA posts earnings to the MEF based on information
obtained from employers and the Internal Revenue Service (for self-employed individuals).
9
 SSA/OIG, Improper Payments Resulting from the Annual Earnings Test (A-09-07-17066),
August 31, 2007.
Page 3 - The Commissioner

RESULTS OF REVIEW
SSA improperly paid beneficiaries whose MBR annual report data exceeded their
earnings on the MEF. Based on a random sample of 200 beneficiaries, we found that
SSA improperly paid 94 beneficiaries (47 percent) $132,628 in benefits. Specifically,
SSA underpaid 90 beneficiaries $127,009 and overpaid 4 beneficiaries $5,619. As a
result, we estimate that SSA improperly paid 10,644 beneficiaries about $15 million
during CYs 2005 through 2008. In addition, unless SSA revises the EEO, we estimate it
will improperly pay about $3.7 million, annually, to 2,661 beneficiaries. We are
90-percent confident the number of beneficiaries who were improperly paid ranged from
9,293 to 12,010, and the amount of improper payments ranged from $10.2 to
$19.9 million (see Appendix C).

These errors occurred because SSA’s policy is to exclude from the EEO beneficiaries
whose MBR annual report data exceeded the earnings recorded on SSA’s MEF.

Our sample results are summarized below.


     Annual Earnings Test Improper Payments to Beneficiaries
                            Based on Random Sample of 200 Beneficiaries

                                                       106 Correct Payments
                                                               (53%)



         4 Overpayments
              (2%)




                          90 Underpayments
                                (45%)



SSA Policy Excluded Potential Underpayments from the EEO

When beneficiaries initially apply for benefits, SSA requests that they provide an
estimate of their expected earnings for the year. SSA records this information on the
MBR and uses it to determine the amount of current and future benefits payable. Each
year, SSA updates the MBR with a current year estimate based on the amount of actual
earnings for the prior year unless the beneficiary provides a different amount.

The Act 10 requires that beneficiaries provide an annual report of earnings for a taxable
year when they (1) are entitled to benefits for 1 or more months during the year, (2) earn
10
     Social Security Act, § 203 (h), SSA, POMS, RS 02510.001 (May 23, 2007).
Page 4 - The Commissioner

over the annual exempt amount, and (3) are under full retirement age in at least
1 month. However, beginning in 1997, SSA amended its regulations to use the MEF as
the annual report required by the Act. SSA made this change to reduce the reporting
burden for beneficiaries. With this change, beneficiaries would only need to contact
SSA to report their earnings if they need to provide additional information, such as
special wage payments, or if the earnings information that SSA had was incorrect.

The EEO identifies beneficiaries whose estimated earnings or actual annual report of
earnings on the MBR do not agree with the earnings amount on the MEF. However,
SSA does not process the records of beneficiaries whose annual report data on the
MBR exceed the earnings amount recorded on the MEF. 11

Beneficiaries Excluded from Earnings Enforcement Were Improperly Paid

SSA improperly paid $132,628 to 94 (47 percent) of the 200 beneficiaries in our sample.
This consisted of 90 beneficiaries who were underpaid $127,009 and 4 beneficiaries
who were overpaid $5,619 (see Appendix C). In addition, the underpayments may, in
some cases, result in a lower ongoing monthly benefit amount at full retirement age and
the overpayments in a higher ongoing monthly benefit amount at full retirement age. It
may also result in a decrease or increase in monthly benefits payable to surviving
spouses. These improper payments occurred because SSA specifically excluded these
beneficiaries from the EEO because the annual report data on the MBR exceeded the
earnings amount recorded on the MEF. In addition, our review disclosed that several of
these beneficiaries may not have filed annual reports. Finally, we found that SSA
employees recorded incorrect annual report data on the MBR.

   Beneficiaries May Not Have Filed Annual Reports – SSA’s policy does not require
that its employees retain evidence of annual reports submitted by beneficiaries.
Consequently, during our review of the sample items, we did not find evidence that
annual reports were actually filed. However, we did find evidence that beneficiaries did
not file an annual report of earnings.

For six beneficiaries in our sample, AJS-3 recorded on the MBR estimated earnings for
the current year that equaled the amount for the prior year. At the beginning of the
following year, SSA employees recorded annual report data on the MBR equal to the
estimated amounts. Further, there was no evidence that these beneficiaries filed
annual reports of their earnings because SSA employees were not required to retain
this information. As a result, these six beneficiaries were underpaid $4,741. We
referred these cases to SSA for corrective action.

For example, a beneficiary was underpaid $1,440 in 2008 because annual report data
on the MBR were higher than the earnings recorded on the MEF. For this beneficiary,
AJS-3 recorded on the MBR the beneficiary’s estimated earnings of $41,164 for 2008
based on his actual earnings of $41,164 for 2007. In February 2009, an SSA employee

11
     SSA, POMS, RS 02510.026 C.2.c (November 2, 2007).
Page 5 - The Commissioner

changed the MBR to show the $41,164 as an annual report for 2008. However, the
MEF showed that the beneficiary’s actual earnings for 2008 were only $38,285. Since
the MBR annual report data were higher than the earnings on the MEF, the EEO did not
select this record for correction.

    Incorrect Annual Report Data on the MBR - We found that SSA improperly paid
beneficiaries because (1) SSA employees incorrectly recorded estimated earnings as
annual reports of earnings, (2) the annual earnings amounts had obvious transposition
errors, and (3) annual report data on the MBR included earnings that were not subject
to the AET.

For example, a beneficiary was underpaid $338 because an SSA employee incorrectly
recorded on the MBR her estimated earnings as an annual report (that is, actual
earnings). When the beneficiary applied for benefits in April 2005, an SSA employee
recorded on the MBR her 2005 estimated earnings of $21,816 as an annual report.
SSA paid the beneficiary based on this estimate and did not adjust her benefit
payments after the actual earnings of $21,140 were recorded on the MEF.

In another example, a beneficiary was underpaid $1,048 because his annual report data
on the MBR included earnings that were exempt from the AET. Specifically, the MBR
annual report data showed that the beneficiary earned $15,056 in 2007; however, the
$15,056 included $6,427 that he did not earn in 2007. SSA did not adjust his benefit
payments after his correct 2007 earnings of $8,629 were recorded on the MEF because
the MBR annual report amount exceeded the amount on the MEF.

Summary of Incorrect MBR Annual Report Data

Our analysis of the 94 improper payments found that SSA should not rely on the annual
report data on the MBR to determine whether beneficiaries were properly paid. The
improper payments occurred because the annual report data on the MBR (1) were
estimated amounts, (2) contained obvious recording errors, and (3) included earnings
that were not subject to the AET. Finally, our interviews with a sample of beneficiaries
also confirmed that the annual report data on the MBR were incorrect.

   Estimated Amounts – 25 beneficiaries were improperly paid because the amount on
the MBR was clearly an estimate and not an annual report. Below are four examples
that illustrate why we concluded the MBR earnings were incorrect. In each example,
the MBR and MEF amounts consistently agreed, except for the year in question. Based
on our review of the MBR, MEF, and actions taken by SSA, we concluded that the MBR
data for examples 1 through 3 were estimates that SSA incorrectly recorded as annual
reports. The MBR estimated earnings are significantly higher than the earnings on the
MEF. The round numbers also suggest they are estimates and not actual earnings.
Example 4 shows that SSA incorrectly re-recorded the beneficiary’s 2007 actual
earnings as 2008 earnings.
Page 6 - The Commissioner


     Example Year             MBR Earnings        MEF Earnings         Earnings Discrepancy

       1.      2007           $20,880             $20,880              $0
               2008           $70,000             $20,033              $49,967

       2.      2005           $40,000             $29,110              $10,890
               2006           $13,907             $13,907              $0

       3.      2006           $10,285             $10,285              $0
               2007           $18,000             $11,436              $6,564

       4.      2007           $41,164             $41,164              $0
               2008           $41,164             $38,285              $2,879

   Recording Errors - Four beneficiaries were improperly paid because there was an
obvious transposition error for the annual report amounts recorded on the MBR. For
example, a beneficiary’s MBR annual report data for 2005 had earnings of $19,825.
However, the 9 and the 8 were incorrectly transposed since the actual earnings on the
MEF were $18,925.

   Earnings Not Subject to the AET - Five beneficiaries were improperly paid because
the amount on the MBR incorrectly included special wage payments (for example,
deferred compensation) that were not subject to the AET. SSA had recorded the
special wage payments on the MEF and should have subtracted them from the annual
report amount on the MBR. For example, a beneficiary’s MBR annual report data for
2007 had earnings of $15,056. The MEF also had earnings of $15,056; however, this
amount included a $6,427 special wage payment that was not subject to the AET.
Therefore, the correct annual report amount on the MBR for AET purposes should have
only been $8,629.

Beneficiary Interviews – For the remaining 60 beneficiaries there was insufficient
evidence to determine why the MBR annual report amounts were higher than the MEF
amounts. Therefore, we interviewed a sample of nine beneficiaries12 to determine
whether the MBR annual report data were correct. Our interviews found that SSA
should not have used the MBR amounts to determine whether beneficiaries were
properly paid. Specifically, six beneficiaries had MBR amounts that were incorrect
because they included earnings not subject to the AET (for example, salaries and
bonuses before retirement, investment income, or annuities). Two beneficiaries stated
that the MEF amounts were correct, and they did not know the basis for the MBR
amounts. One beneficiary stated that the MBR amount was incorrect because it was an
estimate.




12
  We selected beneficiaries in current pay who had the largest discrepancy between the MBR and the
MEF amounts for the most recent calendar years (2006 through 2008).
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA improperly paid beneficiaries whose MBR annual report data exceeded their
earnings on the MEF. Based on a random sample of 200 beneficiaries, we found that
SSA improperly paid 94 beneficiaries (47 percent) $132,628 in benefits. Specifically,
SSA underpaid 90 beneficiaries $127,009 and overpaid 4 beneficiaries $5,619. As a
result, we estimate that SSA improperly paid 10,644 beneficiaries about $15 million
during CYs 2005 through 2008. In addition, unless SSA revises the EEO, we estimate it
will improperly pay about $3.7 million, annually, to 2,661 beneficiaries (see Appendix C).
These errors occurred because SSA’s policy excluded from the EEO beneficiaries
whose MBR annual report data exceeded the earnings recorded on SSA’s MEF.

We recommend that SSA:

1. Take corrective action, as appropriate, for the 94 beneficiaries identified by our audit.
   Based on the results of the corrective action for the 94 beneficiaries, develop a
   cost-effective method to identify all improperly paid beneficiaries whose MBR annual
   report data exceeded the amount of earnings on the MEF since CY 2005.

2. Review its policies, procedures, and systems concerning earnings and benefit
   computations to provide accurate results for Title II beneficiaries.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
Act      Social Security Act
AET      Annual Earnings Test
AJS-3    Automated Job Stream
CY       Calendar Year
EEO      Earnings Enforcement Operation
MBR      Master Beneficiary Record
MEF      Master Earnings File
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                               Appendix B

Scope and Methodology
We obtained computer files from the Social Security Administration’s (SSA) Office of
Systems that contained 526,067 records it had excluded from the Earnings
Enforcement Operation (EEO) for Calendar Years (CY) 2005 through 2008. 1 For these
records, we obtained information from the Master Beneficiary Record (MBR) to identify
our population of 22,647 records that had (1) annual report data greater than the annual
exempt amount by $200 or more and (2) differences in the amount of earnings recorded
on the MBR and Master Earnings File (MEF) that was greater than $200. From this
population, we selected a random sample of 200 records for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

•   interviewed SSA employees from the Offices of Quality Performance and Retirement
    and Survivors Insurance Systems; and

•   reviewed queries from SSA’s MBR and MEF to determine whether SSA properly
    adjusted benefits based on actual earnings.

•   interviewed a sample of nine beneficiaries to determine whether the MBR annual
    report data were correct.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives. However, we did not determine the completeness of the data provided
by SSA’s Office of Systems.

We performed audit work in Richmond, California, between February and August 2011.
The entities audited were the Offices of Income Security Programs under the Office of
the Deputy Commissioner for Retirement and Disability Policy; Retirement and
Survivors Insurance Systems under the Office of the Deputy Commissioner for
Systems; and Quality Performance under the Office of the Deputy Commissioner for
Quality Performance.




1
 The Office of Systems did not provide all records for CY 2006 because it had removed some from SSA’s
computer system because of limited storage.


                                                B-1
We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                         B-2
                                                                             Appendix C

Sampling Methodology and Results
From the population of 22,647 records described in Appendix B, we randomly selected
a sample of 200 for review. For each beneficiary in our sample, we reviewed the
Master Beneficiary Record and Master Earnings File (MEF) to determine whether the
Social Security Administration (SSA) properly adjusted benefits based on the earnings
posted to the MEF. Of the 200 beneficiaries in our sample, we found SSA improperly
paid 94 (47 percent) beneficiaries $132,628. This consisted of 90 beneficiaries who
were underpaid $127,009 and 4 who were overpaid $5,619. Projecting these results to
the population of 22,647 beneficiaries, we estimate SSA improperly paid about
$15 million to 10,644 beneficiaries during Calendar Years (CY) 2005 through 2008. The
following tables provide the details of our sample results and statistical projections.

Table 1 – Population and Sample Size

 Description                                                                   Number
 Population Size                                                                   22,647
 Sample Size                                                                          200

Table 2 – Improper Payments

 Description                                                    Number         Amount
 Sample Results                                                         94       $132,628
 Point Estimate                                                     10,644     $15,018,132
 Projection - Lower Limit                                            9,293     $10,155,416
 Projection - Upper Limit                                           12,010     $19,880,847
Note: All projections are at the 90-percent confidence level.

To estimate the amount of improper payments annually if SSA does not revise the EEO,
we divided our projections for the estimated number of and amount of improper
payments by the number of years in our audit period.

Table 3 – Annual Improper Payments

 Description                                                    Number         Amount
 Point Estimate                                                     10,644     $15,018,132
 Years (CYs 2005 Through 2008)                                           4               4
 Annual Estimate                                                     2,661      $3,754,533
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 26, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Annual Earnings Test Underpayments Payable to
           Beneficiaries” (A-09-11-11128)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ANNUAL EARNINGS TEST UNDERPAYMENTS PAYABLE TO BENEFICIARIES”
(A-09-11-11128)


GENERAL COMMENTS

We believe that changing our policy as suggested would not result in higher benefits for all
beneficiaries and their families. To assist the reader in understanding our current policy, the
report should include information about how earnings affect benefits and explain that
beneficiaries get credit for months they do not receive a full monthly benefit because of work
and earnings. We suggest the following language for OIG to use in its report:

       A beneficiary can work while receiving retirement benefits. If the beneficiary is younger
       than full retirement age (FRA) and earns more than the allowable amount, we will reduce
       his or her benefit for that year. However, the benefit reductions are not lost. Once a
       beneficiary reaches FRA, his or her benefit will increase to account for each month we
       withheld full or partial benefits because of the excess earnings. We refer to this process
       as the “adjustment of the reduction factor” (ARF), and it increases the benefit at full
       retirement age. Each year we review the earnings records of beneficiaries who work. If
       an additional year of earnings is one their 35 highest earning years, we will automatically
       increase the ongoing monthly benefit.

       For some beneficiaries, using the earnings on the Master Earnings File instead of the
       earnings on the Master Beneficiary Record could affect the ARF and result in lower
       ongoing benefits. This lower ongoing benefit amount also could reduce the amount of
       benefits payable to a surviving spouse because of the retirement insurance benefit
       limitation, which caps the benefit of a widow(er) whose spouse filed for early retirement
       benefits.

In addition, the report should explain the migration of the Automated Job Stream Earnings
Enforcement (AJS3) to Title II Redesign (T2R). The upcoming T2R systems release will move
the month of election in some cases to reflect the claimant’s choice of when to start benefits
based on earnings.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Take corrective action, as appropriate, for the 94 beneficiaries identified by our audit. Based on
the results of the corrective action for the 94 beneficiaries, develop a cost effective method to
identify all improperly paid beneficiaries whose MBR annual report data exceeded the amount of
earnings on the MEF since CY 2005.




                                               D-2
Response

We agree. We will take corrective action on the 34 cases where we made inaccurate payments.
We will not take action on those cases where we correctly applied existing policy. We will
consider further action for beneficiaries whose Master Benefit Record annual report data
exceeded the amount of earnings on the Master Earnings File since calendar year 2005, based on
the outcome of the study referenced in recommendation two, subject to our rules of
administrative finality.

Recommendation 2

Review its policies, procedures, and systems concerning earnings and benefit computations to
provide accurate results for Title II beneficiaries.

Response

We agree. We will conduct a study once we complete the migration of AJS-3 to T2R.




                                              D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   James Sippel, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-11-11128.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
